           U.S. Department of
                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—Audit                      Date:    October 26, 2007
           of FAA’s Runway Safety Area Improvement
           Program
           Federal Aviation Administration
           Project No. 07A3013A000
  From:    Robin K. Hunt                                           Reply to
                                                                   Attn. of:   JA-10
           Acting Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Assistant Administrator for Financial Services
            and Chief Financial Officer

           The Office of Inspector General plans to conduct an audit of the Runway Safety Area
           (RSA) Improvement Program. The Department of Transportation Appropriations Act
           for fiscal year 2006 requires that the Federal Aviation Administration (FAA) report
           annually on its progress toward improving RSAs. The act also requires commercial
           airport sponsors to ensure that their RSAs comply with FAA design standards by
           2015. As of May 2007, FAA reported that over 200 runways still need to be
           improved.

           The objectives of this audit are to: (1) evaluate the effectiveness of FAA’s process for
           identifying, prioritizing, and funding needed RSA improvements and (2) assess
           FAA’s and airports’ progress and risk, if any, in fulfilling the congressional RSA
           mandate.

           We will conduct the audit at FAA Headquarters in Washington, DC; selected FAA
           Regions and Airport District Offices; and various airports. We plan to start the audit
           during the week of November 26, 2007, and will contact your audit liaison to
           schedule an entrance conference. If you have any questions or require additional
           information, please contact Darren Murphy, Program Director, at (206) 220-6503 or
           Jerrold Savage, Project Manager, at (206) 220-6511.
                                                        #
           cc:        FAA Deputy Administrator
                      Associate Administrator for Airports
                      Anthony Williams, ABU-100
                      Martin Gertel, M-1
